No.

IN THE

Supreme (Cmirt nf Hye

JBtates

Martin James Kipp,
Petitioner,
v.
Ron Broomfield, Acting Warden,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
CERTIFICATE PURSUANT TO RULE 33
Pursuant to Rule 33.2, I hereby certify that this petition is 40 pages

long and therefore complies with the page limit set out in Rule 33 and was

prepared in 13-point Century Schoolbook font.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender
DATED: May 18, 2021

MARK R. DROZDOWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

1

